HHS/OIG, Audit -"Review Of Outpatient Cardiac Rehabilitation Services at Orange Regional Medical Center - Horton Campus,"(A-02-03-01013)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of Outpatient Cardiac Rehabilitation Services at Orange Regional Medical Center - Horton Campus," (A-02-03-01013)
January 12, 2004
Complete
Text of Report is available in PDF format (772 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare
properly reimbursed the Orange Regional Medical Center  Horton Campus (Hospital) for outpatient cardiac rehabilitation
services.  Medical record documentation we examined showed no evidence that a physician personally sees a patient
periodically throughout the program.  In addition, we reviewed a sample of 30 Medicare beneficiaries who received
outpatient cardiac rehabilitation services during calendar year 2001 totaling $11,678.  We found that medical and
billing records provided by the Hospital for 26 beneficiaries receiving cardiac rehabilitation services did not always
support services performed.  We recommended that the Hospital work with the fiscal intermediary to ensure that the
Hospital's outpatient cardiac rehabilitation program is being conducted in accordance with Medicare coverage and billing
requirements.